APPENDIX TABLE OF CONTENTS
Opinion of the United States Court of Appeals
for the Fifth Circuit (June 28, 2019)
la
Memorandum and Order of the United States
District Court for the Southern District of
4a
Texas Houston Division (August 18, 2017)
Order of the United States Court of Appeals for
the Fifth Circuit Denying Petition for
Rehearing (July 29, 2019)
25a

App . la

OPINION OF THE
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
(JUNE 28, 2019)
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

SANDRA G. HALE,
PlaintiffAppellant,
v.
UNITED STATES OF AMERICA;
MICHAEL DEBAKEY MEDICAL CENTER
(VA HOSPITAL); CHRISTOPHER R. SANDLES;
ROBERT MCDONALD; PAUL WENZSLAWSH, PA;
DOCTOR JOHN MA, M.D.,
Defendants-Appellees.
No. 18-20071
Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:17-CV-226
Before: JOLLY, COSTA, and HO, Circuit Judges.
PER CURIAM*
* Pursuant to 5th Cir. R. 47.5, the court has determined that this
opinion should not be published and is not precedent except under
the limited circumstances set forth in 5th Cir. R. 47.5.4.

App.2a

Sandra Hale—a disabled veteran—sued Dr. John
Ma, a doctor at DeBakey VA Medical Center, and Paul
Wenzlawsh, a physician assistant there, for
misdiagnosing and mistreating her shoulder injury.
Because they are federal employees and she brought
a tort claim, she could not sue them individually, but
she could sue the federal government under the Federal
Tort Claims Act. 28 U.S.C. § 2679(b)(1). The district
court later granted summary judgment to the government and we review that decision de novo. Coleman
v. United States, 912 F.3d 824, 828 (5th Cir. 2019).
The FTCA allows private citizens to sue the federal
government when federal employees commit torts for
which a private person would be liable under state
law. Hannah v. United States, 523 F.3d 597, 601 (5th
Cir. 2008). Though Hale strains against this in her
briefs, her complaint alleges a health care liability
claim. When someone claims they are harmed by a
medical professional whose care falls below the accepted
standards of medical care, that claim is for health
care liability. Tex. Civ. Prac. & Rem. § 74.001(a)(13);
see also Loaisiga v. Cerda, 379 S.W.3d 248, 256 (Tex.
2012) (describing the expansive application of Texas's
Medical Liability Act). In Texas, expert testimony is
generally required to establish the standard of care,
to determine whether the medical professional breached
it, and to determine whether that breach caused the
alleged injuries. Ellis v. United States, 673 F.3d 367,
373 (5th Cir. 2012) (quoting Jelinek v. Casas, 328
S.W.3d 526, 538 (Tex. 2010)). Of course, not every
case requires it: if a surgeon operates on the wrong
knee or leaves a sponge inside, no expert testimony is
required. Haddock v. Arnspiger, 793 S.W.2d 948, 951

App.3a

(Tex. 1990). But Hale does not present such an obvious
case; she needed an expert.
The only one she tried to provide is herself.
According to her designation, Hale served as a nurse
for over 35 years. But the expert must be a doctor.
Tex. Civ. Prac. & Rem. Code §§ 74.401(a), 74.403(a).
Texas law does not consider a nurse sufficiently
qualified to establish causation in a medical negligence
case. Id. at § 74.403(a). Hale thus could not serve as
her own expert and, failing to produce another,
summary judgment was appropriate.
Hale also argues that the government was dilatory
in filing its answer to her amended complaint, requiring
a default judgment. The district court was well within
its discretion in accepting the answer. See Fed. R.
Civ. P. 15(a)(3) (establishing 14-day response period to
amended pleadings "unless the court orders otherwise")
AFFIRMED.

App.4a

MEMORANDUM AND ORDER
OF THE UNITED STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
(AUGUST 18, 2017)
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
SANDRA G. HALE,

v.
UNITED STATES OF AMERICA, ET AL.,
Defendants.
Civil Action No. 4:17-0226
Before: Nancy F. ATLAS,
Senior United States District Judge.
Plaintiff Sandra Hale, who proceeds pro se,
alleges that she was injured when receiving medical
treatment at the Michael DeBakey Veterans' Administration Medical Center ("MEDVAC"). The United
States filed a Motion to Dismiss or for Summary Judgment [Doc. # 25] ("Defendants' Motion"), to which
Plaintiff filed a Response [Doc. # 31], Defendants

App.5a
filed a Reply [Doc. # 26], and Plaintiff filed a Supplemental Opposition [Doc. # 36]. In addition, Plaintiff
filed a Motion for Partial Summary Judgment on the
Pleadings or Partial Summary Judgment [Doc. # 32]
("Plaintiffs Motion"), to which Defendants filed a
Response [Doc. # 35]. The parties' cross-motions are
ripe for decision. Having considered the filings, the
applicable legal authorities, and all matters of record,
the Court concludes that the United States' Motion
should be granted and that Plaintiffs Motion should
be denied. In addition, Plaintiffs Motion for Extension of Time [Doc. # 38], filed on August 9, 2017, will
be denied without prejudice.
I. BACKGROUND
Plaintiff is a sixty-one year old disabled veteran
who brings suit against the United States of America;
MEDVAC; Christopher Sandles, Director of MEDVAC;
Robert McDonald, Secretary of the Veterans' Administration ("VA"); Paul Wenzslawsh, P.A., a federal employee; and John Ma, M.D., a federal employee. She
also complains of Edward Boulay, an x-ray technician
at MEDVAC, and an unnamed female "Instructor" of
Mr. Boulay.1
Plaintiff alleges she was injured on March 18,
2014, when receiving routine CT scans and x-rays at

1 See First Amendment to Original Complaint [Doc. # 37]
("Amended Complaint"). Plaintiff timely filed her Amended Complaint on June 29, 2017, after the currently pending motions
were briefed and before the July 6, 2017, deadline for amended
pleadings. See Docket Control Order [Doc. # 34]. The Court also
will refer to Plaintiffs original pleadings [Doc. # 1] ("Original
Complaint") as appropriate.

App .6a

MEDVAC.2 She alleges that the x-ray technician, Mr.
Boulay, "walked up to [Plaintiff] and, without warning
and without giving her a chance to refuse, put heavy
sandbags into both hands at the same time." Id. She
further alleges that the sandbags caused immediate,
sharp pain:
The sandbags caused Ms. Hale's arms,
shoulders, neck and spine to jerk violently
towards the floor, producing immediate
sharp pain in both shoulders and arms,
neck and spine; with more pain in her
weaker left shoulder and arm than her
stronger right shoulder and arm. As of the
date of this injury, Ms. Hale had no prior
injuries to her shoulders, arms, neck or
spine. Ms. Hale screamed in agony and
begged Edward Boulay to remove the heavy
sandbags because they had caused sharp
pain, but he was dismissive of Ms. Hale's
complaints and did not immediately respond
to remove the sandbags; instead he remained
behind the shielding in the x-ray room and
2 Amended Complaint, at 1, ¶ 1 (complaining of injury "on or about
March 18, 2014"). In her Original Complaint, Plaintiff alleged
that she was injured during a CT scan and x-ray performed on
August 9, 2014, rather than March 18, 2014. With Defendants'
Motion, the Government presented affidavits and records demonstrating that Plaintiff received only a CT scan, and no x-ray, at
MEDVAC on August 9, but that she received both a CT scan and
an x-ray on March 18. Plaintiff now agrees that the events in
question occurred on March 18. See Amended Complaint, at 1,
¶ 1. See also Plaintiffs Motion, at 1 (stating that documentation in
the record has "objectively verif[ied]" that MEDVAC employees
used sandbags for Plaintiffs shoulder x-rays on March 18,
2014).

App.7a

had a brief discussion with the unknown
female VA employee. Ms. Hale could hear
him explain to the female VA employee that
the purpose of the sandbags was to "level
out" Ms. Hale's shoulders for the x-ray and
that she needed to continue to hold them.
The female VA employee then explained
that it was not critical to the x-ray and that
it was authorized to remove the sandbags
since Ms. Hale was elderly and could not
sustain the heavy weight and was obviously
in pain.
Id. at 2, ¶ 2.3 Ms. Hale reports that, in the subsequent
months, she had "sharp" and "radiating" pain, a
limited range of motion in her left shoulder and arm,
and a "tilted" shoulder frame "with her left shoulder
appearing to be noticeably higher than her right
shoulder." Id. at 2, ¶ 3. She alleges that this tilted
frame "could be easily seen in a mirror and should
have been obvious to anyone observing for symmetry."
Id.
On September 15, 2014, Dr. Ma, a federal employee named as a Defendant in this action, examined
Plaintiff. Plaintiff states that she had extreme pain
and limited mobility in her shoulder, and sought
follow-up care because, as a former nurse, she
suspected an injury of her soft tissue, tendon, or
muscle. Id. at 3, 1111 4-5. She alleges that, without first
doing any imaging, Dr. Ma told Plaintiff to relax and
3 Mr. Boulay states in a declaration that he does not specifically
recall Plaintiff on that date but that his regular practice was to
place sandbags in patients' hands during x-rays. Declaration of
Edward Boulay (Exhibit B to Defendant's Motion), at 1, ¶ 6.

App.8a

then "suddenly jerked Ms. Hale's arm above her
head," causing "sharp pain and tearing in her shoulders." Id. ¶ 5 (citing Exhibit F to Amended Complaint).4 Plaintiff states that she was in so much pain
that she "could not scream" and "was paralyzed." Id.
Plaintiff alleges that ultrasound records from
February 2015 show "three full thickness tears in her
left rotator cuff." Id. at 4, ¶ 8. She claims that, at a
follow-iip visit on March 4, 2015, Paul Wenzlawsh
P.A., a federal employee named as a Defendant in
this action, negligently relied on "outdated images
from September 2014" rather than the February
2015 ultrasound results, and "wrongly diagnosed"
Plaintiff with a muscle spasm rather than a torn
rotator cuff. Id. at 5-6, ¶¶ 10-12 (citing Exhibit B to
Amended Complaint).5
Plaintiff subsequently sought care outside MEDVAC. She states that in May 2015, Eileen Wu, M.D.,
diagnosed her with a "frozen shoulder" and recommended surgery by a shoulder specialist. Id. at 6,
¶ 14; see id. at Exhibit C (email purportedly from Dr.
Wu's office dated May 8, 2015, informing Plaintiff
that she had "a large full-thickness tear of [her]
rotator cuff as well as a frozen shoulder").
4 Exhibit F to the Amended Complaint appears to be a partial
record of Plaintiffs appointment with Dr. Ma on September 15,
2014. The document states that Plaintiff complained of "sharp,
shooting shoulder pain" for the past month, that she rated her
pain as "10/10," and that the pain began with shoulder x-rays in
August 2014. The document does not reflect any assessment or
impression from Dr. Ma or other medical professionals regarding Plaintiffs shoulder pain.
5 Exhibit B appears to be partial records from Plaintiffs March
4, 2015 appointment.

App.9a

Plaintiff alleges that her medical condition was
caused by MEDVAC personnel, and worsened because
of MEDVAC's inadequate medical diagnosis and
treatment. She brings claims for negligence and gross
negligence. She alleges that the Defendants' tortious
conduct "caused [her] torn rotator cuffs, muscle
injuries, spinal deformity, muscle weakness, nerve
damage, calcified tendons and calcified muscles, frozen
shoulder and other associated injuries," in addition to
pain, suffering, and emotional distress. Id. at 13, ¶ 22
(j).

Plaintiff filed her administrative tort claim with
the VA on July 6, 2016. See Defendants' Motion, at
Exhibit C. The VA denied the claim on January 11,
2017. See id. at Exhibit D. She filed this federal suit
on January 19, 2017, and seeks damages of $500,000
against each Defendant.
II. LEGAL STANDARDS
Both parties have filed dispositive motions. Defendants seek partial dismissal of Plaintiffs claims under
Federal Rule of Civil Procedure 12(b)(6) or, in the
alternative, partial summary judgment. Plaintiff seeks
summary judgment and also invokes Rule 12(c).
A. Rule 12(b)(6)
A motion to dismiss under Rule 12(b)(6) is viewed
with disfavor and is rarely granted. See Lormand v.
US Unwired, Inc., 565 F.3d 228, 232 (5th Cir. 2009);
Test Masters Educ. Servs., Inc. v. Singh, 428 F.3d
559, 570 (5th Cir. 2005). The Supreme Court has explained that in considering a motion to dismiss under
Rule 12(b)(6), a complaint must be liberally construed in favor of the plaintiff and all well-pleaded

App.10a

facts taken as true. See Ashcroft v. Iqbal, 556 U.S.
662, 679 (2009); Erickson v. Pardus, 551 U.S. 89, 94
(2007) (citing Bell Atlantic Corp. v. Twombly, 550 U.S.
544, 555-56 (2007)). However, "[t]hreadbare recitals
of the elements of a cause of action, supported by
mere conclusory statements, do not suffice." Iqbal,
556 U.S. at 678 (citing Twombly, 550 U.S. at 555).
The complaint must contain "sufficient factual matter,
accepted as true, to 'state a claim to relief that is
plausible on its face.'" Id (quoting Twombly, 550 U.S.
at 570).
Judgment on the Pleadings
Rule 12(c) provides, "After the pleadings are closed
—but early enough not to delay trial—a party may
move for judgment on the pleadings." FED. R. CIV.
P. 12(c). The standard for judgment on the pleadings
under Rule 12(c) "is the same as that for dismissal
for failure to state a claim under Rule 12(b)(6)."
Johnson v. Johnson, 385 F.3d 503, 529 (5th Cir.
2004). The Court must "accept the complaint's wellpleaded facts as true and view them in the light most
favorable to the plaintiff." Id. The motion "should not
be granted unless the plaintiff would not be entitled
to relief under any set of facts that he could prove
consistent with the complaint." Id.
Summary Judgment Standard
Rule 56 of the Federal Rules of Civil Procedure
mandates the entry of summary judgment who fails
to make a sufficient showing of the existence of an
element essential to the party's case, and on which
that party will bear the burden at trial. Celotex Corp.
v. Catrett, 477 U.S. 317, 322 (1986); Little v. Liquid

App.11a

Air Corp., 37 F.3d 1069, 1075 (5th Cir. 1994) (en
banc); see also Baton Rouge Oil and Chem. Workers
Union v. ExxonMobil Corp., 289 F.3d 373, 375 (5th
Cir. 2002). Summary judgment "should be rendered
if the pleadings, the discovery and disclosure materials
on file, and any affidavits show that there is no
genuine issue as to any material fact and that the
movant is entitled to judgment as a matter of law."
FED. R. CIV. P. 56(a); Celotex, 477 U.S. at 322-23;
Weaver v. CCA Indus., Inc., 529 F.3d 335, 339 (5th
Cir. 2008).
For summary judgment, the initial burden falls
on the movant to identify areas essential to the nonmovant's claim in which there is an "absence of a
genuine issue of material fact." Lincoln Gen. Ins. Co.
v. Reyna, 401 F.3d 347, 349 (5th Cir. 2005). The
moving party, however, need not negate the elements
of the non-movant's case. See Boudreaux v. Swift
Transp. Co., 402 F.3d 536, 540 (5th Cir. 2005). The
moving party may meet its burden by pointing out
"the absence of evidence supporting the nonmoving
party's case."' Duffy v. Leading Edge Prods., Inc., 44
F.3d 308, 312 (5th Cir. 1995) (quoting Skotak v.
Tenneco Resins, Inc., 953 F.2d 909, 913 (5th Cir.
1992)).
If the moving party meets its initial burden, the
non-movant must go beyond the pleadings and designate specific facts showing that there is a genuine
issue of material fact for trial. Littlefield v. Forney
Indep. Sch. Dist., 268 F.3d 275, 282 (5th Cir. 2001)
(internal citation omitted). "An issue is material if its
resolution could affect the outcome of the action. A
dispute as to a material fact is genuine if the evidence is such that a reasonable jury could return a

App.12a

verdict for the nonmoving party." DIRECTV Inc. v.
Robson, 420 F.3d 532, 536 (5th Cir. 2006) (internal
citations omitted). In deciding whether a genuine
and material fact issue has been created, the court
reviews the facts and inferences to be drawn from
them in the light most favorable to the nonmoving
party. Reaves Brokerage Co. v. Sunbelt Fruit &
Vegetable Co., 336 F.3d 410, 412 (5th Cir. 2003). A
genuine issue of material fact exists when the evidence is such that a reasonable jury could return a
verdict for the non-movant. Tamez v. Manthey, 589
F.3d 764, 769 (5th Cir. 2009) (citing Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248 (1986)). The
non-movant's burden is not met by mere reliance on
the allegations or denials in the non-movant's pleadings. See Diamond Offshore Co. v. A&B Builders,
Inc., 302 F.3d 531, 545 n.13 (5th Cir. 2002), overruled
in part on other grounds by Grand Isle Shipyard, Inc.
v. Seacor Marine, LLC, 589 F.3d 778 (5th Cir. 2009).
Likewise, "conclusory allegations" or "unsubstantiated assertions" do not meet the non-movant's
burden. Delta & Pine Land Co. v. Nationwide
Agribusiness Ins. Co., 530 F.3d 395, 399 (5th Cir.
2008). Instead, the nonmoving party must present
specific facts which show "the existence of a genuine
issue concerning every essential component of its
case." Am. Eagle Airlines, Inc. v. Air Line Pilots
Ass'n, Ina 343 F.3d 401, 405 (5th Cir. 2003) (citation
and internal quotation marks omitted). In the
absence of any proof, the court will not assume that
the non-movant could or would prove the necessary
facts. Little, 37 F.3d at 1075 (citing Lujan v. Nat'l
Wildlife Fed'n, 497 U.S. 871, 888 (1990)).

App.13a
The Court may make no credibility determinations or weigh any evidence. See Chaney v. Dreyfus
Serv. Corp., 595 F.3d 219, 229 (5th Cir. 2010) (citing
Reaves Brokerage Co., 336 F.3d at 412-413). The
Court is not required to accept the nonmovant's conclusory allegations, speculation, and unsubstantiated
assertions which are either entirely unsupported, or
supported by a mere scintilla of evidence. Id. (citing
Reaves Brokerage, 336 F.3d at 413).
Affidavits cannot preclude summary judgment
unless they contain competent and otherwise admissible evidence. See FED. R. CIV. P. 56(c)(4) ("An affidavit or declaration used to support or oppose a motion
must be made on personal knowledge, set out facts
that would be admissible in evidence, and show that
the affiant or declarant is competent to testify on the
matters stated"); Love v. Nat'l Med. Enters., 230 F.3d
765, 776 (5th Cir. 2000); Hunter-Reed v. City of
Houston, 244 F. Supp. 2d 733, 745 (S.D. Tex. 2003).
A party's self-serving and unsupported statement in
an affidavit will not defeat summary judgment where
the evidence in the record is to the contrary. See In
re Hinsely, 201 F.3d 638, 643 (5th Cir. 2000).
Finally, although the Court may consider all
materials in the record when deciding a summary
judgment motion, "the court need consider only the
cited materials." FED. R. CIV. P. 56(c)(3). "When evidence exists in the summary judgment record but the
nonmovant fails even to refer to it in the response to
the motion for summary judgment, that evidence is
not properly before the district court. Rule 56 does
not impose upon the district court a duty to sift
through the record in search of evidence to support a
party's opposition to summary judgment." Malacara

App.14a

v. Garber, 353 F.3d 393, 405 (5th Cir. 2003) (internal
citations and quotation marks omitted).
III. ANALYSIS
Defendants' Motion seeks to (1) dismiss all
Defendants other than the United States, because
the Federal Tort Claims Act, 28 U.S.C. § 2671 et seq.
("FTCA"), is Plaintiffs exclusive remedy; and (2) dismiss Plaintiffs claims regarding events before July 6,
2014, as time-barred. Plaintiff seeks judgment in her
favor on the merits of her claims.
A. FTCA Defendants
The FTCA provides a limited waiver of sovereign
immunity to allow tort claims against the federal
government. Pleasant v. United States ex rel. Overton Brooks Veterans Admin. Hosp., 764 F.3d 445,
448 (5th Cir. 2014); Creel v. United States, 598 F.3d
210, 213 (5th Cir. 2010). Under the FTCA, a person
may present a claim to a federal agency for certain
negligent or wrongful acts of federal employees:
The head of each Federal agency . . . may consider, ascertain, adjust, determine, compromise, and settle any claim for money damages
against the United States for injury or loss
of property or personal injury or death
caused by the negligent or wrongful act or
omission of any employee of the agency
while acting within the scope of his office or
employment, under circumstances where
the United States, if a private person, would
be liable to the claimant in accordance with
the law of the place where the act or omission occurred . . .

App.15a

28 U.S.C. § 2672. After exhaustion of the claim before
the appropriate federal agency, a claimant may
institute a civil action against the United States. 28
U.S.C. § 2675(a). See 28 U.S.C. § 1346(a) (district
courts have original jurisdiction over civil actions
against the United States).
The remedy provided by the FTCA is exclusive of
all other remedies. In other words, the FTCA permits
suits against the Government for torts committed by
its employees, but precludes any suit against the
individual employee.
The remedy against the United States provided by sections 1346(b) and 2672 of this
title for injury or loss of property, or personal injury or death arising or resulting
from the negligent or wrongful act or
omission of any employee of the Government while acting within the scope of his
office or employment is exclusive of any
other civil action or proceeding for money
damages by reason of the same subject
matter against the employee whose act or
omission gave rise to the claim or against
the estate of such employee. Any other civil
action or proceeding for money damages
arising out of or relating to the same subject
matter against the employee or the employee's
estate is precluded without regard to when
the act or omission occurred.
28 U.S.C. § 2679(b)(1) (emphasis added). See In re
FEMA Trailer Formaldehyde Prod. Liab. Litig (Mississippi Plaintiffs), 668 F.3d 281, 287 (5th Cir. 2012).

App.16a

In this case, Plaintiff alleges that all Defendants
are federal employees, and the Government agrees.
See Amended Complaint, at 8-13, ¶¶ 19-24; Certification of Scope of Employment (Exhibit 1 to Defendants' Reply [Doc. # 26]). The FTCA therefore requires
Plaintiff to bring her FTCA claims against the United
States only. See 28 U.S.C. § 2679(b)(1); King v. U.S.
Dep't of Veterans Affairs, 728 F.3d 410, 413 n. 2 (5th
Cir. 2013) (affirming dismissal of FTCA claims against
individual defendants for lack of subject matter jurisdiction).
All Defendants other than the United States will
be dismissed from this action. Plaintiff may continue
to allege, as otherwise permitted, that the acts or
omissions of federal employees caused her injury.
However, she may only seek legal remedy from the
United States.
B. FTCA Statute of Limitations
The Government seeks dismissal under the statute
of limitations of Plaintiffs claims accruing before
July 6, 2014. As stated above, the parties now agree
that the sandbag incident, which Plaintiff identifies
as the inception of her injury, occurred on March 18,
2014.
Tort claims against the United States are "forever
barred" unless presented in writing to the appropriate federal agency "within two years after such claim
accrues." 28 U.S.C. § 2401(b). Thereafter, if a person
wants to challenge an agency's denial of a tort claim,
he or she must file a civil action "within six months"
after the agency mails its final denial. Id. Taken
together, Section 2401(b)'s provisions permit two
years from injury to administrative claim and then

App.17a

six months from administrative denial to federal suit.
See Trinity Marine Products, Inc. v. United States,
812 F.3d 481, 487-88 (5th Cir. 2016); In re FEMA
Trailer Formaldehyde Prods. Liab. Litig., 646 F.3d
185, 189 (5th Cir. 2011), abrogated on other grounds
by United States v. Wong, 135 S. Ct. 1625, 1638
(2015).
In this case, Plaintiff filed her administrative
claim with the VA on July 6, 2016. Defendants' Motion,
at Exhibit C. Under Section 2401(b), any claims that
accrued before July 6, 2014, are "forever barred."
The Court next must determine when Plaintiffs
claims accrued. In general, a cause of action under the
FTCA accrues "when a plaintiff knows both her
injury and its cause." Trinity, 812 F.3d at 487-88
(internal quotation marks and citation omitted). "An
FTCA claimant's awareness of an injury involves two
elements: `(1) The existence of the injury; and (2)
causation, that is, the connection between the injury
and the defendant's actions."' Huerta v. United States,
384 F. App'x 326, 328 (5th Cir. 2010) (quoting Piotrowski v. City of Houston, 51 F.3d 512, 516 (5th Cir. 1995)).
Plaintiffs pleadings clearly allege that she immediately knew, during the March 18, 2014, x-ray, that
she was injured and that her injury was caused by
the sandbags. Her Amended Complaint states that,
when the x-ray technician placed sandbags in her
hands, the sandbags caused "immediate sharp pain
in both shoulders and arms, neck and spine" and that
she "screamed in agony" from the pain. Amended
Complaint, at 2. ¶ 2. By her own pleadings, Plaintiffs claim thus accrued on March 18, 2014. Because
her administrative complaint was not filed within
two years of accrual, any FTCA claim regarding

App.18a

injuries suffered on March 18, 2014 is time-barred.
See Trinity, 812 F.3d at 487-88.
Plaintiff invokes two doctrines that allow for an
extension of limitations periods in certain cases.
First, she argues for application of the continuing
tort doctrine, arguing that Defendants' "repetitive
wrongful acts" toll the limitations period. See Plaintiffs Motion, at 5 (claim "does not accrue until the
tortious conduct ceases"). The Fifth Circuit has not
decided squarely whether the continuing doctrine
applies to FTCA claims. FEMA Trailer, 646 F.3d at
191. Nevertheless, even if the doctrine were applicable,
it would not provide a basis for expansion of the limitations period because "claim accrual under the FTCA
is based on awareness of the injury, not when the
alleged wrongful conduct ends." Id. As stated above,
Plaintiff was aware of her injury on March 18, 2014.
Therefore, even assuming Plaintiff could prove that
the Government has engaged in wrongful conduct
since her injury, the continuing tort doctrine does not
change the accrual date for her claims arising from
the March 18, 2014, x-ray.
Second, Plaintiff argues that the limitations period should be equitably tolled. See Wong, 135 S. Ct.
at 1633 (FTCA's limitations period is non-jurisdictional and thus subject to equitable tolling). Equitable
tolling is a narrow remedy to be "sparingly applied,"
Granger v. Aaron's, Inc., 636 F.3d 708, 712 (5th Cir.
2011), and the party asserting equitable tolling has
the burden to justify its application. Trinity, 812 F.3d
at 489. The Fifth Circuit "has recognized several
grounds for equitable tolling, including where a plaintiff is unaware of the facts giving rise to the claim
because of the defendant's intentional concealment of

App.19a
them." Id. (internal citation and quotation marks
omitted).
In this case, the facts as alleged by Plaintiff
weigh strongly against application of equitable tolling.
Plaintiff asserts in her briefing that her "injuries
were not discovered until February 2015 and that the
statute of limitations does not begin to run until that
date." Supplemental Opposition [Doc. # 36], at 3. See
Plaintiffs Motion, at 5 (claim "is not triggered until
Plaintiffs true injuries were revealed in an ultrasound
in February 2015-2016 and were undiscoverable until
objectively verified by independent doctors and medical tests"). These assertions are contrary to the
allegations in her Amended Complaint,6 which was
filed after Defendants' Motion. Moreover, they are
unsupported by any competent evidence. Such
assertions therefore are insufficient to defeat summary judgment. See Chaney, 595 F.3d at 229 (court
is not required to accept the nonmovant's conclusory
allegations, speculation, and unsubstantiated assertions
which are either entirely unsupported, or supported
by a mere scintilla of evidence). Additionally, the Court
notes that Plaintiff has presented no competent evidence of "intentional concealment" of the facts by
Defendants, or any other grounds that might justify
6 Plaintiffs pleadings clearly allege that she was in immediate
pain during the March 18, 2014, x-ray, and that her "tilted"
shoulder frame was obvious and visible within several months.
Amended Complaint, at 2, 11 2-3. Plaintiff further alleges that
she sought care from Dr. Ma in September 2014 because she, a
"former nurse," suspected injury to her soft tissue, tendon, or
muscle. Id. at 3, ¶ 4. All of these facts indicate that Plaintiff was
aware in 2014 of "'the facts giving rise to the claim'." See
,
Trinity, 812 F.3d at 489 (quoting Granger 636 F.3d at 712).

App.20a

equitable tolling in this case. See Trinity, 812 F.3d at
489.
Plaintiff has failed to present any colorable
argument for the application of either the continuing
tort doctrine or equitable tolling. Plaintiffs claims
regarding her alleged injuries from the March 18,
2014, x-ray are time-barred. Plaintiff may proceed
with any claims against the United States that
accrued on or after July 6, 2014.
C. Plaintiffs FTCA Claim
Plaintiff seeks entry of judgment in her favor on
the merits of her FTCA claims. "The FTCA authorizes civil actions for damages against the United States
for personal injury or death caused by the negligence
of a government employee under circumstances in
which a private person would be liable under the law
of the state in which the negligent act or omission
occurred." Hannah v. United States, 523 F.3d 597,
601 (5th Cir. 2008) (citing 28 U.S.C. § 1346(b)(1),
§ 2674). Plaintiff brings claims for medical negligence
(medical malpractice) and gross negligence.
Under Texas law, in an action for medical negligence or medical malpractice, the plaintiff bears the
burden of proving (1) the physician's duty to act
according to an applicable standard of care; (2) a
breach of that standard of care; (3) injury; and (4)
causation. Columbia Valley Healthcare Sys., L.P. v.
Zamarripa, 2017 WL 2492003, at *4 & n. 29 (Tex.
June 9, 2017) (citing IHS Cedars Treatment Ctr. of
DeSoto, Tex., Inc. v. Mason, 143 S.W.3d 794, 798
(Tex. 2004)). See Ellis v. United States, 673 F.3d 367,
373 (5th Cir. 2012); Honey-Love v. United States, 664
F. App'x 358, 362 (5th Cir. 2016). Gross negligence

App.21a

requires a plaintiff to prove "by clear and convincing
evidence that 1) when viewed objectively from the
defendant's standpoint at the time of the event, the
act or omission involved an extreme degree of risk,
considering the probability and magnitude of the
potential harm to others and 2) the defendant had
actual, subjective awareness of the risk involved, but
nevertheless proceeded with conscious indifference to
the rights, safety, or welfare of others." U-Haul Intern.,
Inc. v. Waldrip, 380 S.W.3d 118, 137 (Tex. 2012).
At this early stage of the case, Plaintiff is not
entitled to summary judgment because she has not
adequately demonstrated the absence of a genuine
issue of material fact on elements for which she bears
the burden of proof. To take one example, the causation element for medical negligence requires Plaintiff
to demonstrate by a "reasonable medical probability"
or a "reasonable probability" that the Government
caused her injuries, meaning that "it is more likely
than not that the ultimate harm or condition resulted
from such negligence." Jelinek v. Casas, 328 S.W.3d
526, 532-33 (Tex. 2010)) (internal quotation marks
and citation omitted). See Ellis, 673 F.3d at 373. On
the current record, although Plaintiff has alleged
that federal employees caused her injuries, she has
not presented competent evidence demonstrating a
"reasonable medical probability" regarding causation,
as would be required for summary judgment in
Plaintiffs favor.
The Court further notes that, in most medical
negligence cases, expert testimony is necessary to
satisfy the plaintiffs burden of proof. See Ellis, 673
F.3d at 373 ("`[E]xpert testimony is necessary to
establish causation as to medical conditions outside

App.22a

the common knowledge and experience of [the finder
of fact]'," quoting Guevara v. Ferrer, 247 S.W.3d 662,
665 (Tex. 2007) (alterations in original)); Hannah,
523 F.3d at 601 ("Unless the mode or form of treatment is a matter of common knowledge or is within
the experience of the layman, expert testimony will
be required' to meet the plaintiffs burden of proof,"
quoting Hood v. Phillips, 554 S.W.2d 160, 165-66
(Tex.1977)) This expert testimony must consist not
only of the expert's opinion, but must establish why
the expert's conclusion is superior to other possible
conclusions, based on verifiable medical evidence:
It is not enough for an expert simply to
opine that the defendant's negligence caused
the plaintiffs injury.. . . [W]hen the facts support several possible conclusions, only some
of which establish that the defendant's negligence caused the plaintiffs injury, the expert must explain to the fact finder why
those conclusions are superior based on
verifiable medical evidence, not simply the
expert's opinion.
Jelinek, 328 S.W.3d at 536 (internal quotation marks
and citations omitted). See Ellis, 673 F.3d at 373.
Plaintiff has not yet presented such evidence.
Summary judgment in Plaintiffs favor is denied.
D. Plaintiffs Motion for Extension of Time
On August 9, 2017, Plaintiff filed a Motion for
Extension of Time [Doc. # 38], in which she continues
to allege that she is in extreme pain, and that the
Government is responsible for her injuries, and that
the Government is slow to respond to her repeated

App.23a

requests for medical treatment. Plaintiff requests
that her entire case be "suspended until such time
Plaintiff notifies the Court that she is medically able
to continue." See Proposed Order [Doc. # 38-1].
Plaintiffs motion is denied without prejudice. If,
given the rulings in this Memorandum, Plaintiff
believes that an extension of time continues to be
necessary, she may file a renewed motion for extension of time. Plaintiff is instructed that, if she files a
renewed motion, such motion must (1) be accompanied
by documentation supporting Plaintiffs contention
that she is currently unable to consult with a medical
expert witness or otherwise pursue her claims in this
lawsuit and, (2) request a specific amount of time,
with facts and documentation supporting why the
requested amount of time is warranted.
W. CONCLUSION
For the foregoing reasons, it is hereby
ORDERED that the United States' Motion to
Dismiss or for Summary Judgment [Doc. # 25] is
GRANTED. All Defendants other than the United
States are DISMISSED with prejudice from this
lawsuit. Plaintiffs claims against the Government
that accrued before July 6, 2014, are DISMISSED as
time-barred. Plaintiff may proceed with this lawsuit
against the United States Government for her FTCA
claims that accrued on or after July 6, 2014, but all
other claims in this lawsuit are dismissed. It is further
ORDERED that Plaintiffs Motion for Partial
Summary Judgment on the Pleadings or Partial

App.24a

Summary Judgment [Doc. # 32] is DENIED. It is
finally
ORDERED that Plaintiffs Motion for Extension
of Time [Doc. # 38], is DENIED without prejudice.
Plaintiff is INSTRUCTED that, if she files a renewed
motion, such motion must (1) be accompanied by documentation supporting Plaintiffs contention that she
is currently unable to consult with a medical expert
witness or otherwise pursue her claims in this
lawsuit and, (2) request a specific amount of time,
with facts and documentation supporting why the
requested amount of time is warranted.
SIGNED at Houston, Texas, this 18th day of
August, 2017.
/s/ Nancy F. Atlas
Senior United States District Judge

App.25a

ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT DENYING
PETITION FOR REHEARING
(JULY 29, 2019)
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

SANDRA G. HALE,
PlaintifIlAppellant,
v.
UNITED STATES OF AMERICA;
MICHAEL DEBAKEY MEDICAL CENTER
(VA HOSPITAL); CHRISTOPHER R. SANDLES;
ROBERT MCDONALD; PAUL WENZSLAWSH, PA;
DOCTOR JOHN MA, M.D.,
Defendants-Appellees.
No. 18-20071
Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:17-CV-226
Before: JOLLY, COSTA, and HO, Circuit Judges.
PER CURIAM:
IT IS ORDERED that the petition for rehearing
is DENIED
ENTERED FOR THE COURT:
/s/ Gregg J. Costa
United States Circuit Judge

